Office of Inspector General

                                                            May 10, 2012


MEMORANDUM

TO:                  USAID/IDEA/SA, Maura O’Neill

FROM:                AIG/A, Timothy Cox

SUBJECT:             Review of USAID Cooperative Development Programs
                     (Report No. 9-000-12-001-S)

The Office of Inspector General (OIG) conducted a review1 to assess a complaint from Professor
Richard Tinsley, an agronomist with extensive USAID experience. Professor Tinsley requested
a review into USAID’s use of the cooperative business model to determine whether these
programs are justified for continued use or whether other means of assisting small farmers
should be used. We concluded that we could not adequately assess benefits accruing to small
farmers participating in USAID-funded agricultural cooperatives because the financial data
needed to perform an assessment were not readily available.

Our review of documents brought to our attention both the lack of reliable data with which to
make informed program decisions for cooperative development programs and the challenges
these programs experience. We began our review with the objective of assessing the economic
benefits accruing to small farmers participating in USAID-funded agricultural cooperative
development programs. We worked with USAID to identify the evaluations and reports that
describe the agency experience with agricultural cooperatives. We learned that a 2009 report,
Measuring Cooperative Success: New Challenges and Opportunities in Low-and Middle-Income
Countries, identified a need to measure cooperative performance and recommended metrics for
program reporting. While USAID has taken steps that will contribute to cooperative
development improvements, such as new planning for improved evaluation and new data
requirements in recent requests for proposal announcements, we did not identify a
comprehensive approach across the agency to apply a set of relevant metrics with which to
assess cooperative development program results.


1
 The review was in response to Senator Mark Udall’s letter to USAID of February 28, 2012, forwarding
correspondence from his constituent, Richard Tinsley.


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                                             -2-

Based on the above, OIG concluded that USAID should improve data collection and evaluation
of cooperative development programs and those cooperative programs serving small farmers
may merit additional in-depth review. These evaluations would assist USAID in making
funding decisions and allow USAID to draw conclusions about the effectiveness and efficiency
of the cooperative business model. To encourage data collection and assessment for
cooperatives programs, OIG is making the following recommendation:

       Recommendation 1: We recommend that the Office of Innovation and
       Development Alliances (1) work with other offices in USAID to develop and
       implement requirements for financial and economic reporting in agency
       cooperative programs and (2) evaluate the reported data to determine whether the
       cooperative business model has produced sustainable economic benefits for small
       farmers.

We would appreciate your written comments within 30 days of receipt of this management letter.
In your comments, please clearly state your position on the recommendation. If you agree with
the recommendation, please confirm your agreement and include a plan for corrective action,
along with a target date for completion of the planned action. If you disagree with the
recommendation, please explain why you disagree.



Attachment: Copy of Letter to Professor Tinsley

cc: Assistant Administrator, Bureau for Food Security, P. Weisenfeld
Office of Inspector General
                                                     May 10, 2012



Professor Richard Tinsley



Dear Professor Tinsley:

        Your letter to Senator Udall was referred to my office for response. In your letter, you
expressed concerns about USAID’s use of the cooperative business model to support small
farmers. Our review of USAID’s use of the cooperative business model found that USAID does
not collect financial data to inform decision making about cooperative development programs.

        We started our review by sharing your letter with the manager of USAID’s Cooperative
Development Program in the Office of Innovation and Development Alliances to determine what
information was readily available to evaluate small farmer cooperatives. We obtained program
reports related to cooperatives, but we could not locate a rigorous assessment or evaluation
directly addressing the experiences of small farmers in cooperatives funded by USAID.

        Absent that, we requested the data you suggested in your letter to determine whether we
could perform an economic analysis of cooperative programs for small farmers. We found that
financial and economic data to evaluate and compare cooperative and private sector business
opportunities available to small farmers were not readily available. According to USAID,
obtaining reliable data on production costs, opportunity costs, side selling, and other aspects of
small farmers’ experience in cooperatives would take an inordinate amount of time.

         A 2009 report, Measuring Cooperative Success: New Challenges and Opportunities in
Low- and Middle-Income Countries (available on the U.S. Overseas Cooperative Development
Council’s Web site at http://www.ocdc.coop/OCDC/documents/PUB_Metrics_2009.pdf),
asserts, and we strongly agree, that basic business parameters (financial and economic
performance indicators) should be part of routine progress reporting. This report, produced with
USAID funding, identifies challenges of measuring the business practices of cooperative
development programs and recommends developing and collecting quantitative measures and
results.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                                               -2-



        We also met with staff from USAID’s Bureau for Food Security (BFS) to discuss the
ideas in your letter. In response to your concern for sustainability, the BFS representative said
that USAID directs funding to research, policy improvements, extension services, infrastructure,
and financial services that, taken together, are designed to deliver sustainable economic
benefits. Because agricultural producer cooperatives are a small part of this overall strategy,
they have not been examined in depth.

        To conclude our review, we informed Agency executives of your concerns and our belief
that improved data collection and analysis must guide program decisions regarding agricultural
cooperatives. To strengthen program management, we recommended that the Office of
Innovation and Development Alliances coordinate improvements in financial and economic
reporting and evaluation of USAID agricultural cooperative programs to assess the benefits of
the cooperative business model for small farmers.

       Thank you for your interest in making USAID programs more efficient and effective.


                                                     Cordially,



                                                     Timothy Cox
                                                     Assistant Inspector General for Audits
